                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

 Case Number: I12060032                                                                     Page 1 of 2



         This case was opened under a proactive review looking at SBIR Phase II awards in which the PI
         may not have been primarily employed by the grantee, as required in the SBIR requirements.
         We investigated the PI 1 of a small business 2 that has received four NSF SBIR awards. We
         reviewed financial documentation, timesheets and payroll records for the latest award 3 granted to
         the business in 2008. While we determined that the PI worked for the business more than 51%
         of his time during the award period, our review also found that the business failed to adequately
         document time worked by undergraduate students under an REU supplement to the award. As a
         result, the business returned $10,633 to NSF. No additional action is required.

         Accordingly, this investigation is closed.




         1
         2
         3




NSF OIG Form 2 (11/02)
